APPENDIX
Decisions of the United States Court of Appeals

Appendix A

Judgment of United States Court of Appeals

Appendix B

Order of The United States Court of Appeals I

Mirfion crPe/s/tyw

///ed A//<,7

tirtt

/6 £o 7&

/no-boo of\nhoian

30

!

®mteb States; Court of Appeal#
Jfor tpe CEigptfj Circuit

No. 19-2759

Deverick Scott
Plaintiff - Appellant
v.
Danny Burl, Warden, Tucker Max Unit, ADC; Aundrea F. Fitzgerald, Assistant
Warden, Tucker Max, Unit (originally named as Weekly); Carl E. Stout, Major,
Tucker Max, Unit; Richard Clark, Lieutenant, Tucker Max, ADC (originally
named as Clark); Cochoran; Angelah Kennedy, Sergeant, Tucker Max Unit, ADC
(originally named as Kennedy); Cornelius Christopher, Sergeant, Tucker Max
Unit, ADC (originally named as Christopher); Eddie Thompson, Corporal, Tucker
Max Unit, ADC (originally named as Thompson); Hunter Neal, Officer, Tucker
Max Unit, ADC (originally named as Neil); Crystal Neese, Officer, Tucker Max
Unit, ADC (originally named as Neese); Reena Harrison, Commissary Supervisor,
Tucker Max Unit, ADC (originally named as Harrison); Wendy Kelley, Director,
ADC (originally named as Kelly)
Defendants - Appellees

Appeal from United States District Court
for the Eastern District of Arkansas - Pine Bluff

Submitted: March 27, 2020
Filed: April 1, 2020
[Unpublished]

mu e
- V'

Case 5:17-cv-00098-DPM Document 63 Filed 07/29/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
DEVERICK SCOTT
ADC #131042

PLAINTIFF
No. 5:17-cv-98-DPM

v.

DANNY BURL, Warden,
Tucker Max Unit, ADC, et al.

DEFENDANTS
ORDER

On de novo review, the Court adopts Magistrate Judge Harris's
careful recommendation, Nq 55, and overrules Scott's objections, Nq 58.
Fed. R. Civ. P. 72(b)(3). Motion for summary judgment, Nq 44, granted.
Scott's remaining claims will be dismissed with prejudice.
So Ordered.
___________

D P. Marshall Jr.
United State District Judge
Ad

AOid

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 1 of 31

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
PLAINTIFF

DEVERICK SCOTT
v.

No. 5:I7-cv-00098 DPM-PSH

DANNY BURL, et al

DEFENDANTS
FINDINGS AND RECOMMENDATION
INSTRUCTIONS

The following proposed Recommendation has been sent to United States District
Judge D.P. Marshall Jr. You may file written objections to all or part of this
Recommendation. If you do so, those objections must: (1) specifically explain the factual
and/or legal basis for your objection, and (2) be received by the Clerk of this Court within
fourteen (14) days of this Recommendation. By not objecting, you may waive the right to
appeal questions of fact.
DISPOSITION
I. Introduction
Plaintiff Deverick Scott (“Scott”), an inmate at the Arkansas Department of
Correction’s (“ADC”) Varner Supermax Unit, filed a complaint on April 4, 2017, asserting
claims under 42 U.S.C. § 1983, state tort law, and the Religious Land Use and
Institutionalized Persons Act (“RLUIPA”). See Doc. No. 1 at 1. Scott sues Danny Burl,

N

former Warden of the Maximum Security Unit (“MSU”); former MSU Deputy Warden
■N

\

/Jppeot/xx

(hfji)
«(*•• V-/'

w.‘

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 2 of 31

Aundrea Fitzgerald (identified as Warden Weekly in Scott’s Complaint and now known as
Audrea Culclager);1 Major Carl Stout; Lieutenant Richard Clark; Sergeant and Property
Officer Angelah Kennedy; Lieutenant Cochoran; Sergeant Cornelius Christopher; Sergeant
Eddie Thompson; Hunter Neal; Crystal Neese; Business Operations Specialist Reena
Harrison; and ADC Director Wendy Kelley, in their official and individual capacities. Id.
Scott sues for compensatory and punitive damages. Id. at 7-8.
Scott’s lawsuit pertains to his housing in punitive isolation at the-MSU between
March 3, 2015 and February 5,2016. Doc. No. 1. Scott’s complaint describes four claims.
See Doc. No. 38 at 4. First, Scott alleges that Kennedy wrongfully confiscated and
destroyed certain personal property belonging to Scott on December 15,2015, in retaliation
for his use of the grievance procedure. Doc. No. 1 at 4, ^ 46. Scott further alleges that
Kelley, Stout, Clark, Burl, and Christopher failed to take corrective action with respect to
Kennedy’s alleged retaliation. Id. Second, Scott alleges that Kelley, Burl, Weekly
(Fitzgerald/Culclager), Stout, and Harrison created a policy that would not allow him to
have personal hygiene items while in punitive segregation. Id. at 4-5, ^ 47. Scott also
alleges that Stout retaliated against him for writing grievances by not signing his indigent
hygiene slips. Third, Scott alleges that Cochoran, Clark, and Stout refused to allow Scott
to be escorted to the infirmary until he took his hair down and that his hair was up because
of his religious beliefs. Id. at 5-6, f 48. Scott claims he was denied adequate medical care

1 Culclager. was the Deputy Warden at the MSU from October 25, 2015, until November
20, 2016. See Declaration of Aundrea Culclager, Doc. No. 44-5 at 1. Culclager is now the
Warden of the MSU. Id.

X

2

9*

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 3 of 31

as a result. Id. Finally, Scott alleges that he was given a false disciplinary for possessing
a shank in retaliation for writi
*1“ r9T

'

xieyances against Kennedy..-, Id. at 6,1|49. Specifically,

*'

Scott alleges that Kennedy conspired with Thompson to write a false disciplinary stating
___ that Kennedy found a shank in a holding cell occupied by Scott._Id. Scott further claims
that Neal and Neese conspired to cover up Kennedy and Thompson’s conspiracy. Id.
Scott’s claims against Cochoran were dismissed because Scott did not provide an
address for service for Cochoran. See Doc. Nos. 21 & 22. Scott’s corrective inaction claim
~ — ‘T_

.1

against'Burl, Kelley, and Christopher was dismissed for failure to exhaust administrative
remedies, and Scott’s false disciplinary claims against Neal and Neese were similarly
dismissed. See Doc. Nos. 38 & 39. Scott’s other claims remain pending.
Before the Court is a motion for summary judgment and related pleadings filed by
the remaining defendants (Doc. Nos. 44-46). Scott filed a response, brief in support, and
statement of disputed factual issues (Doc. Nos. 50-52). Defendants filed a reply (Doc. No.
54). For the reasons described herein, the undersigned recommends that defendants’
motion for summary judgment be granted.
II. Legal Standard
Under Rule 56 of the Federal Rules of Civil Procedure, summary judgment is proper
if “the movant shows that there is no genuine dispute as to any material fact and that the
moving party is entitled to a judgment as a matter of law.” Fed. R. Civ. P. 56(a); Celotex
v. Catrett, All U.S. 317, 321 (1986). When ruling op a motion for summary judgment, the
0

court must view the evidence in a light most favorable to the nonmoving party. Naucke v.
A

City ofPark Hills, 284 F.3d 923, 927 (8th Cir. 2002). The nonmoving party may not rely
\

\

3
\
X

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 4 of 31

on allegations or denials, but must demonstrate the existence of specific facts that create a
genuine issue for trial. Mann v. Yarnell, 497 F.3d 822, 825 (8th Cir. 2007). The nonmoving
party’s allegations must be supported by sufficient probative evidence that would permit a
finding in .his favor on more than mere.speculation, conjecture,_or. fantasy.-Id. (citations------- 1
omitted). An assertion that a fact cannot be disputed or is genuinely disputed must be
supported by materials in the record such as “depositions, documents, electronically stored
information, affidavits or declarations, stipulations (including those made for purposes of
the motion only), admissions, interrogatory answers, or other materials ...”. Fed. R. Civ.
P. 56(c)(1)(A). A party may also show that a fact is disputed or undisputed by “showing
that the materials cited do not establish the absence or presence of a genuine dispute, or
that an adverse party cannot produce admissible evidence to support the fact.” Fed. R. Civ.
P. 56(c)(1)(B). A dispute is genuine if the evidence is such that it could cause a reasonable
jury to return a verdict for either party; a fact is material if its resolution affects the outcome
of the case. Othman v. City of Country Club Hills, 671 F.3d 672, 675 (8th Cir. 2012).
Disputes that are not genuine or that are about facts that are not material will not preclude
summary judgment. Sitzes v. City of West Memphis, Ark., 606 F.3d 461, 465 (8th Cir.
2010).

4

\

7
■V

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 5 of 31

III. Discussion
A.

Sovereign Immunity
Defendants correctly assert that Scott’s monetary claims against them in their

official capacities are barred by sovereign immunity.2 A suit against a defendant in his or
her official capacity is in essence a suit against the State of Arkansas, and any official
capacity claim for monetary damages against that defendant is barred by the doctrine of
sovereign immunity. Will v. Michigan Department ofState Police, et al., 491 U.S. 58, 71
(1989); Nix v. Norman, 879 F.2d 429, 431-432 (8th Cir. 1989).

Accordingly, the

undersigned recommends that defendants be awarded summary judgment with respect to
Scott’s official capacity claims.
B.

Qualified Immunity
Defendants assert they are entitled to qualified immunity with respect to Scott’s

individual capacity claims.

Qualified immunity protects government officials from

liability for damages “insofar as their conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person [in their positions] would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).

Qualified immunity is a

question of law and is appropriately resolved on summary judgment. McClendon v. Story
County Sheriffs Office, 403 F.3d 510, 515 (8th Cir. 2005); Mitchell v. Forsyth, 472 U.S.
511, 526 (1985). To determine whether a defendant is entitled to qualified immunity, the
Court must consider two questions: (1) do the facts alleged by plaintiff establish a violation

2 Scott does not seek injunctive relief. Doc. No. 1 at 7-8.
5

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 6 of 31

h)
of a constitutional or statutory right; and (2) if so, was that right clearly established at the
time of the defendant’s alleged misconduct. Wright v. United States, 813 F.3d 689, 695
(8th Cir. 2015). Courts may exercise “their sound discretion in deciding which of the two
^_prongs of-the qualified immunity analysis should be addressed first in light-of thecircumstances of the particular case at hand.” Pearson v. Callahan, 555 U.S. 223, 236
(2009).
1.

Personal Hygiene Items: Defendants Kelley, Burl Culclager, Stout &
Harrison

Scott alleges that his First, Eighth, and Fourteenth Amendment rights were violated
because Kelley, Burl, Culclager, Stout, and Harrison failed to train and supervise staff. He
also claims they were deliberately indifferent to his health and safety by creating a punitive
segregation policy that forced Scott to go over 30 days without buying hygiene necessities.
Doc. No. 1 at 4-5, ^ 47. Additionally, Scott alleges that Stout retaliated against him for
writing a grievance by refusing to sign off on indigent hygiene slips. Id. Defendants argue
they are entitled to summary judgment because: (1) the named defendants were not
responsible for creating MSU’s punitive segregation policy; (2) the policy does allow
inmates to possess and purchase personal hygiene supplies while in punitive isolation; and
(3) Scott in fact purchased hygiene supplies while in punitive isolation. See Doc. No. 45.
a. Undisputed Facts3

3 The facts provided by defendants in their statement of facts are mostly undisputed by
Scott. See Doc. No. 52. Facts disputed by Scott are noted. The documents referred to were
provided by defendants. See Doc. Nos. 44 & 54.
\
6

'-V

V

Case: 5:17-cv-00098-DPM

i.

Document #: 55-0

Date Filed: 05/09/2019

Page 7 of 31

Relevant ADC Policies

Punitive segregation at the MSU is governed by Administrative Directive (AD) 1224 “Punitive Segregation/Restriction”4 and MS 10.02.0. The ADC also has a dental policy
that provides inmates with dental supplies.
AD 12-24 explains the purpose for punitive segregation, and defines and explains
the procedures regarding punitive segregation. Doc. No. 44-11. These procedures
encompass commissary, showers, personal property, and cleanliness/grooming, among
other things. Id. Specifically, the policy reads, in part, as follows:
Inmates may be confined to punitive segregation for a period of up to 30
days.
Inmates serving consecutive punitive isolation sentences will receive 48hour relief at the end of each 30-day sentence. Inmate privileges a^
previously outlined in this policy will be restored during the 48-hour relief
period and will be restricted again at the beginning of the next punitive
sentence. An inmate’s telephone privilege will not be restored during 48hour relief if the privilege was suspended due to a conviction of disciplinary
rule violation 02-5, 09-13 or 17-3. Commissary purchases may be made by
an inmate only if the inmate’s 48-hour relief falls on their regularly scheduled
commissary day, and will be limited to a quantity that can reasonably be
consumed in 48 hours. Imnate personal property privileges as previously
outlined in paragraph A (9) of this policy will remain in effect.
Id. at 7.

The MSU’s punitive segregation policy, MS 10.02.0, was created by the unit

4 AD 12-24 became effective in 2012. It is based on Administrative Regulation (AR)
839. Defendants did not create AR 839. Doc. No. 46 at 12; Doc. No. 52 at 6. ADs are
authorized by the Director. See Administrative Regulation 001, Doc. No. 44-9 at 1. Ray
Hobbs was the ADC Director in 2012. Doc. No. 46 at 12; Doc. No. 52 at 6. Wendy Kelley was
not the ADC Director in 2012. See Declaration of Wendy Kelley, Doc. No. 44-20 at 2.
\
\
7

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 8 of 31

warden.5 Doc. No. 44-12. It is the unit policy that tracks both AD 12-24 and AR 839. Id.
Pursuant to MS 10.02.0, inmates in punitive segregation are allowed to possess (among
other things): soap, toothbrush, toothpaste, toilet paper, a comb, and deodorant. Id. at 45.6 The policy further provides that inmates may not purchase commissary items while in
punitive isolation unless they are on their 48-hour relief period and the commissary is open.
Id. at 4. Inmates in punitive segregation are afforded the opportunity to shave and shower
three times per week, after which each inmate will be given a fresh change of clothing. Id.
No substantive changes were made to MS 10.02.0 during Warden Burl’s tenure. See
Declaration of Danny Burl, Doc. No. 44-13.
ADC Dental Policy 1000.00 “Dental Services” states that each inmate will be
provided with one toothbrush upon admission, and quarterly thereafter. Doc. No. 44-8.
The policy further provides that each inmate will be provided with a 1.5 ounce tube of
toothpaste on a monthly basis. In addition, if items are lost or damaged, the inmate is to
inform the health care services staff, which will issue a replacement. Doc. No. 44-8 at 2.
ll.

Stays in Punitive Isolation/Purchase ofHygiene Supplies

On March 3, 2015, Scott was transferred from the Vamer Unit to the MSU. See Scott’s status assignment sheet from May 26, 2004, to April 24,2017. Doc. No. 44-1 at 5.
He was housed in isolation between March 3 and March 10, 2015. Id. Scott made a large

5 Each ADC unit has its own unit policies. Doc. No. 44-5 at 1. Unit policies are created
by the unit wardens. Unit policies follow the ARs and ADs and are tailored to the particular unit.
Id.
6 Scott points out that while inmates are allowed to have these things in punitive isolation,
they are not allowed to buy them while in punitive isolation. Doc. No. 52 at 6-7.
8

\

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 9 of 31

purchase from the MSU commissary on March 16,2015, which included three bars of soap,
a toothbrush, and shower shoes. Doc. No. 44-2 at 3.
Scott was next housed in isolation between March 24 and April 22,2015, after being
found guilty of a .Major Disciplinary. JDoc. No. 44-1 at 4. Two.days after being_released
from isolation, on April 24, 2015, Scott purchased toothpaste, deodorant, and two bars of
soap from the MSU commissary. Id.
Scott was next housed in isolation between May 19 and June 18, 2015, after being
found guilty of another Major Disciplinary. Doc. No. 44-1 at 4. On June 29, 2015, Scott
visited the MSU commissary, where he purchased fingernail clippers but no other hygiene
products. Doc. No. 44-2 at 4.
Between July 30,2015, and February 5,2016, Scott was housed in punitive isolation
because of numerous disciplinaries he received which resulted in consecutive sentences of
30 days in isolation. Doc. No. 44-1 at 3. During that time, he received 48-hour relief on
August 29, September 29, October 30, November 30, and December 31, 2015, and on
January 31,2016.7 Doc. No. 44-1 at 2-3. Also during that time, commissary records reflect
that Scott was allowed to purchase hygiene items on September 17, 2015 (toothpaste, hair
food, deodorant, six lotions, and two soap bars); November 3,2015 (hair cream, deodorant,

7 Scott states that in September, October, and November of 2015, he was not moved to a
different cell for his 48-hour relief from isolation. Doc. No. 51 at 5 (citing Doc. No. 51 at 79 &
105 and Doc. No. 44-2 at 5 & 6). Scott’s status assignment sheet shows that Scott was moved
for 48-hour relief in September 2015 but not in October or November 2015. Doc. No. 44-1 at 2.
Scott has not shown why this is a material fact. In another case filed by Scott, Judge Joe J.
Volpe found that “neither the constitution nor ADC policy requires that an inmate be moved
from one cell to another during a relief period.” See Scott v. Kelley, No. 5:17-cv-00272 JM
(Doc. No. 75 at 7-8 and Doc. No. 76 adopting the recommendation).
9

1
- * r-

]
Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 10 of 31

toothpaste, hair food, lotion, and curl activator); December 21, 2015 (hair cream,

—

toothpaste, hair food, a toothbrush, six lotions, baby powder, three shampoos and
conditioners, three bars of moisturizing soap, and deodorant); and February 1, 2016 (hair
gel, two toothpastes, and two soap bars). Doc. No. 44-2 at 5,6. Scott was transferred from
the MSU to the Varner Supermax Unit on February 5, 2016. Doc. No. 44-1 at 1.
t.

b. Analysis
l.

Eighth & Fourteenth Amendment Claims

To prevail on an Eighth Amendment conditions of confinement claim, a prisoner
must show (1) the alleged deprivation was, “objectively, sufficiently serious,” and resulted
“in the denial of the minimal civilized measure of life’s necessities,” and (2) prison officials
were deliberately indifferent to “an excessive risk to inmate health or safety.” Farmer v.
Brennan, 511 U.S. 825, 834 (1970). The length of time a prisoner is exposed to unsanitary
conditions is relevant to the Court’s analysis as is the extent of the unclean conditions. See
Owens v. Scott County Jail, 328 F.3d 1026, 1027 (8th Cir. 2003). To prevail on a
Fourteenth Amendment Due Process claim, Scott must show that the conditions he endured
in punitive isolation resulted in an “atypical and significant hardship.” Sandin v. Conner,
515 U.S. 472, 484(1995).
Scott’s Eighth and Fourteenth Amendment claims fail because he does not establish
that he was denied the minimal civilized measure of life’s necessities, and fails to establish
that the conditions he endured resulted in an atypical and significant hardship. The
uncontroverted facts establish that Scott was able to purchase adequate hygiene supplies
on a regular basis, even while in punitive isolation. Scott has also failed to provide
10

*l|

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 11 of 31

evidence that he was refused hygiene supplies at any time or that he did not possess any
hygiene supplies from previous purchases while in isolation.
A review of grievances cited by Scott indicates that his main complaint is that his
48-hour relief periods occurred on weekends or holidays when-the commissary was not
open, and he could therefore not purchase hygiene items he wanted. See Doc. No. 51 at 36
& 39. Scott filed the grievances at issue on January 20 and 25, 2016. Id. InMX-16-342,
submitted on January 25, he claimed he had not been to the commissary in over six and
one-half weeks. Id. at 39. The record, however, shows that it had been just over one month
since Scott purchased hygiene products on December 21,2015. Doc. No. 44-2 at 6. Those
products included hair cream, toothpaste, hair food, a toothbrush, lotions, baby powder,
shampoo, conditioner, three bars of soap, and deodorant. Id.
Scott’s next 48-hour relief period fell on a Thursday, December 31, and ended on
Saturday, January 2. Doc. No. 44-1 at 2. The record does not indicate whether the
commissary was closed on December 31, New Year’s Eve, or January 1, New Year’s Day.
If it was closed on those days, Scott may have missed the opportunity to purchase hygiene
products during that particular 48-hour relief period. However, he had just purchased
numerous hygiene products 10 days before that. Doc. No. 44-2 at 6. Scott does not explain
why those products would not have lasted until his next 48-hour relief period, which began
on January 31, 2016. 8 Doc. No. 44-1 at 2. Scott next purchased hygiene supplies on

8 The record shows that Scott purchased toothpaste, deodorant, and two bars of soap on
April 24, 2015. Doc. No. 44-2 at 4. He was able to purchase more supplies after his next stay in
punitive which ended on June 18, 2015. Doc. No. 44-1 at 3. However, he only purchased
fingernail clippers on June 29, 2015, and was not in punitive isolation again until July 30, 2015.
11

\

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 12 of 31

February 1, 2016, 42 days after his last purchase. Doc. No. 44-2 at 6. At that time, he
purchased hair gel, toothpastes, and two soap bars. Id. The record of purchases simply
does not support a finding that Scott was required to go without hygiene supplies while in
■=—punitive -isolation ,-==.
The record also shows that Scott was able to purchase hygiene supplies not only
during 48-hour relief periods, but also while he was in punitive isolation. He purchased
hygiene supplies on March 16, April 24, June 29, September 17, and November 3, 2015.
Doc. No. 44-2 at 3-6. Scott’s purchases on September 17, November 3, and December 21
occurred while he was in punitive isolation, and not during a 48-hour break. The November
3 purchase occurred just after a 48-hour relief period that fell on a weekend. In sum, the
record shows that Scott was able to purchase hygiene supplies every month to six weeks
while he was housed in punitive isolation, even if he missed one opportunity to purchase
hygiene supplies on a 48-hour relief period.
The undisputed facts establish that Scott purchased and had access to hygiene
supplies on a regular basis while he was housed in punitive isolation. Accordingly, Scott
cannot establish that he was denied the minimal civilized measure of life’s necessities,
which is necessary to establish an Eighth Amendment violation.9 Nor can Scott show that

Doc. No. 44-2 at 4; Doc. No. 44-1 at 3. He did not purchase hygiene products again until
September 17, 2015, even though he had a 48-hour relief period on August 29-31 that did not fall
on a weekend. Doc. No. 44-2 at 5; Doc. No. 44-1 at 3. The supplies purchased on June 18,
2015, presumably lasted until September 17, 2015. This indicates that the supplies Scott
purchases through the commissary are capable of lasting more than one month.
9 Because Scott was not subjected to an objectively, sufficiently serious deprivation that
resulted in the denial of the minimal civilized measure of life’s necessities, the Court does not
reach his claim that certain defendants failed to train their staff regarding the purchase of hygiene
12

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 13 of 31

he was subjected to an atypical and significant hardship while housed in punitive isolation,
which is necessary to establish a Fourteenth Amendment due process claim. Because Scott
cannot establish a violation of his constitutional rights, defendants are entitled to summary
-judgment on Scott-Is.Eighth and Fourteenth Amendment claims. li.

First Amendment Retaliation

Scott also claims he was denied hygiene supplies in January 2016 in retaliation for
writing a grievance against Stout. Doc. No. 1 at 5. Scott’s brief in response to defendants’
motion for summary judgment cites grievance MX-15-3367 dated December 27, 2015,
which names Stout. See Doc. No. 51 at 5 & 26. Scott’s response further explains that he
was allowed to purchase hygiene supplies in punitive isolation until January 2016, when
he wrote the grievance naming defendant Stout. Id. at 5. Scott claims that defendants
Stout, Culclager, and Harrison then denied him basic hygiene items on his 48-hour relief
in early January 2016. Id. at 5-6 (citing Doc. No. 51 at 36-42).
To succeed on a § 1983 retaliation claim, a plaintiff must prove that he engaged in
protected activity and that defendants, to retaliate for the protected activity, took adverse
action against the plaintiff that would chill a person of ordinary firmness from engaging in

supplies. In any case, Scott alleges insufficient facts to establish a failure to train/supervise
claim. See Parrish v. Ball, 594 F.3d 993, 1002 (8th Cir. 2010) (plaintiff asserting failure to
supervise and train staff must show that supervisor “1) Received notice of a pattern of
unconstitutional acts committed by subordinates; 2) Demonstrated deliberate indifference to or
tacit authorization of the offensive acts; 3) Failed to take sufficient remedial action; and 4) That
such failure proximately caused injury to [Plaintiff].”). Scott does not describe what training or
supervision was lacking or how any lack of training or supervision caused him harm. He does
not allege that defendants were aware of any such lack of training or supervision and failed to
take remedial action. In sum, Scott describes no facts to support his bald assertion that
defendants should better train or supervise their staff.
13

t-J

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 14 of 31

that activity. See Lewis v. Jacks, 486 F.3d 1025, 1028-29 (8th Cir. 2007) (citing Revels v.
Vincenz, 382 F.3d 870, 876 (8th Cir. 2004)). The plaintiff must also provide affirmative
evidence of a retaliatory motive. See Haynes v. Stephenson, 588 F.3d 1152, 1157 (8th Cir.
I
2009); see also Wilson, 441 F.3d at 592 (“[Plaintiffs] belief that [defendant] acted from a
retaliatory motive is insufficient.”).
Scott’s allegations do not describe an actionable retaliation claim. Scott provides
no facts to show how defendants Stout, Culclager, and Harrison were personally involved
in his inability to purchase or obtain hygiene items during his 48-hour relief in early
January 2016, and he does not explain why he believes Culclager and Harrison would
retaliate against him for writing a grievance naming Stout. Scott contends that two
grievances he filed after the alleged retaliatory acts constitute evidence of defendants’
retaliatory motive. Doc. No. 51 at 5-6. In those grievances, MX-16-342 and MX-16-203,
Scott complained that he was not allowed to buy hygiene supplies while in punitive
isolation. Doc. No. 51 at 36-42. Those grievances reflect Scott’s complaints but do not
establish a retaliatory motive on the defendants’ part.
Additionally, the Court notes that Scott purchased a significant supply of hygiene
V

items on December 21, 2015 (including toothpaste, a toothbrush, soap, shampoo and
deodorant), just 10 days before his 48-hour relief period began on December 31, 2015.
Even if defendants prevented Scott from purchasing additional supplies in January 2016,
as he contends, such actions would not deter a person of ordinary firmness from filing
grievances in the future. See Santiago v. Blair, 707 F.3d 984,992 (8th Cir. 2013) (“[U]nder
Revels a prisoner must demonstrate not only that a correctional officer took an adverse
14

1

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 16 of 31

!

reliance on the outcome of those claims. Because Scott’s allegations against Kennedy in
this case arise from an incident that occurred in December 2015, the Court will examine
whether Scott’s retaliation claim against Kennedy withstands summary judgment without
reference to Scott v..Kelley I.
a. Undisputed Facts
On December 15, 2015, a number of items, including pornography and numerous
pills,12 were confiscated from Scott’s isolation cell by non-party ADC staff members.13
See Confiscation Forms dated December 15, 2015, Doc. No. 44-6. The items confiscated
were claimed to be contraband by the ADC, and non-party officer Joseph Watson issued
Scott a Major Disciplinary for three ADC rule violations. See Major Disciplinary, Doc.
No. 44-7 at 1. According to AD 14-03 (the ADC’s inmate property control policy), ADC
staff must secure confiscated items which are to be used for disciplinary, grievance, or
judicial proceedings until those proceedings are complete.

Doc. No. 44-17 at 5.

A

disciplinary may be written on all confiscated property as unauthorized, excessive, or
contraband. Id. The policy provides that “contraband will be destroyed.” Id.
On December 18, 2015, Stout reviewed the disciplinary and referred it to the
Disciplinary Hearing Office to schedule a hearing. Doc. No. 44-7 at 1. Scott was notified
of the disciplinary charges later that day. Id. On December 22,2015, Scott appeared before

12 The list of confiscated property does not include hygiene supplies. Doc. No. 44-6.
13 Scott disputes this fact because he contends that former party Christopher was present,
Doc. No. 52 at 4. Christopher’s presence is not a material fact.
16

f

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 17 of 31

Disciplinary Hearing Officer Justine Minor for his disciplinary hearing. Id. at 2. Scott was
found guilty of a Major Disciplinary for two rule violations, including being an inmate in
possession of several items of contraband. Doc. No. 46 at 9; Doc. No. 52 at 4. He was
sentenced to serve 10 days in isolation and was reduced in class to.Class IV. Id. Scott did
not appeal the disciplinary findings. Doc. No. 44-7 at 3. Scott disputes that the items
should be considered contraband. Doc. No. 52 at 4-5. The items determined to be
contraband were destroyed by Kennedy, and Scott claims their destruction was in
retaliation for his use of the grievance process.
b. Analysis
A plaintiff bringing a § 1983 retaliation claim must prove that he engaged in
protected activity and that defendants, to retaliate for the protected activity, took adverse
action against the plaintiff that would chill a person of ordinary firmness from engaging in
that activity. See Lewis v. Jacks, 486 F.3d 1025, 1028-29 (8th Cir. 2007) (citing Revels v.
Vincenz, 382 F.3d 870,876 (8th Cir. 2004)). In Revels, the Eighth Circuit Court of Appeals
held that the plaintiff must prove a causal connection between the constitutionally protected
activity and the adverse action.

382 F.3d at 876.

The plaintiff must also provide

affirmative evidence of a retaliatory motive. See Haynes v. Stephenson, 588 F.3d 1152,
1157 (8th Cir. 2009); see also Wilson, 441 F.3d at 592 (“[Plaintiffs] belief that [defendant]
acted from a retaliatory motive is insufficient.”).
Defendants argue there is no evidence that Kennedy retaliated against Scott, because
Kennedy was merely performing her job when she destroyed certain property that was
found to be contraband in a disciplinary hearing. See Doc. No. 45 at 10-12. It is undisputed
17

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 18 of 31

that Kennedy did not confiscate the property at issue on December 15, 2015. Doc. No. 446. Officer Joseph Watson (a non-party) found the property during a cell search and issued
Scott a Major Disciplinary. Scott was found guilty of a Major Disciplinary for two rule
—violations, including.being an inmate impossession of several items of contraband._ADC
policy instructs staff to secure confiscated items which are to be used for disciplinary
proceedings until the proceedings are complete.

The policy clearly provides that

contraband will be destroyed. The undisputed facts in the record show that Kennedy
simply performed her duties by destroying the property that was deemed contraband during
the disciplinary process.
Scott maintains that a property confiscation form proves that Kennedy acted with a
retaliatory motive. See Doc. No. 51 at 5 (citing Doc. No. 51 at 43). This form only shows
that property was taken by Corporal Jones and Officer Watson after a search was
conducted; the form does not mention Kennedy. Scott also claims that the property was
there solely because defendants did not move him to a different cell for 48-hour relief,

r

brought his personal property to him, and then failed to remove his personal property after
>

his 48-hour relief period ended. Doc. No. 51 at 4. Even if true, these facts do not establish
that Kennedy acted with retaliatory motive when she destroyed the contraband.
Additionally, Scott does not point to any grievance he submitted that he claims resulted in
retaliatory action by Kennedy. In sum, there is no evidence in the record to show that
Kennedy did anything other than perform her job with respect to Scott’s property.
Accordingly, Scott cannot establish a retaliatory motive on Kennedy’s part or a causal
connection between any grievance he may have filed and Kennedy’s actions. Kennedy did
18

kX

Ik

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 19 of 31

:A
not take his property, and she only destroyed it because it was determined to be contraband.
Kennedy is therefore entitled to summary judgment on this claim.
/

Likewise, Scott’s claim that Stout and Clark failed to take corrective action with
.respect to Kennedyls alleged retaliation also fails. Id. Doc. No. 1 at 4, 46. Because there
is no evidence that Kennedy acted wrongfully, Stout and Clark cannot be held liable for
failing to take corrective action. They are also entitled to summary judgment on this claim.
3.

Ihfirmary/Hair Incident: Defendants-Clark & Stout
-v

y

Scott ^alleges that Clark and Stout refused to allow him to be escorted to the
infirmary for treatment until he took his hair down - he claims his hair was up because of
his religious beliefs. Doc. No. 1 at 5-6, ^ 48. Scott claims that because he was not allowed
to go to the infirmary, he suffered pain in his jaw for hours, could not eat, and had migraine
headaches that interfered with his sleep. Id. Scott also claims he was not allowed to
exercise his religious beliefs and customs. Id.
a. Undisputed Facts
On May 21, 2015, Administrative Directive 15-08 “Personal Cleanliness and
Grooming for Inmates” went into effect. Doc. No. 44-3 at 1. AD 15-08 states that
“inmates’ hair must be worn loose, clean, and neatly combed.” Id. Additionally, male
inmates’ hair “must be cut so as to be above the ear, with sideburns no lower than the
middle of the ear lobe and no longer in the back than the middle of the nape of the neck.”
Id
Inmates may request a religious accommodation, and on August 18,2015, Scott was
provided a Certificate of Accommodation - Inmate Grooming by Chaplain William
19

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 20 of 31

Pearson. Doc. No. 44-4. The accommodation, which was cleared by Warden Burl, states:
“Inmate stated on his religious affiliation update form: ‘To grow our hair and beard ‘not’
cut off one hair but can average beard middle of chest and trim it up. Average growth of
hair to middle of back average beard to middle chest.’” Id..14 The Court interprets this
accommodation to allow Scott to wear his hair long, to the middle of his back, and his
beard to the middle of his chest, as a result of his religious beliefs. The record does not
reflect that Scott requested an accommodation allowing him to wear his hair up, nor was
he approved to wear his hair in such manner. Doc. No. 44-4. Scott disputes that he did not
request an accommodation to wear his hair up, but provides no evidence to support that
claim. Doc. No. 52 at 3. Regardless, the accommodation did not authorize Scott to wear
his long hair up.
On January 29, 2016, at approximately 4:27 a.m., Scott was seen in the MSU
Infirmary by Nurse Christina Robinson. See Scott’s medical records dated January 29,
2016, Doc. No. 44-15 at 1. Scott claimed that he had been bitten by a spider. Id. The
nurse noted:
Inmate ambulatory, gait is steady and escorted by two correctional officers
in shackles. Swelling noted to the right side of the Inmate’s face near the
mouth. Skin is warm and firm to touch. Inmate denies a tooth ache and in
stated that he may have “busted a bump on his face last night.” Inmate
concerned that he was bit by a spider. No drainage noted. Resp even and
unlabored, no acute distress noted.

14 Scott denies this fact and cites Doc. No. 7-0 at 62. See Doc. No. 52 at 3. Docket
number 7 in this case is a returned summons. However, docket number 7 in another case filed by
Scott, No. 5:16-cv-00327, is an amended complaint. Page number 62 of that amended complaint
is identical to the religious accommodation provided by defendants in this case at Doc. No. 44-4.
20

Case: 5:17-cv-00098-DPM

Document#: 55-0

Date Filed: 05/09/2019

Page 21 of 31

Doc. No. 44-15 at 1; Doc. No. 51 at 66.
Robinson gave Scott 200 mg of ibuprofen and placed him on the sick call list for
further evaluation. Doc. No. 44-15 at 1. Scott adds that he was told to come back at shift
--- change when the doctor arrived. Doc. No. 52 at 5.
At 9:30 a.m. that same morning, Scott informed RN Leona Mosby during pill call
that he needed something for his face. Doc. No. 44-15 at 2. Nurse Mosby advised Scott
to apply triple antibiotic ointment to the affected area, three times a day for three days, and
to return to sick call if his symptoms did not improve. Id. Scott denies these facts, but
only states that Nurse Mosby did not “know what it was,” and gave him triple antibiotic
ointment, thinking he had a sore. Doc. No. 52 at 5.
The medical entries by Nurses Robinson and Mosby make no reference to Scott
being in any sort of distress or his condition being emergent in nature. Doc. No. 44-15.15
Scott claims that after his medical jacket review at 10:00 a.m., Stout and Clark refused to
let him go to the infirmary because his hair was up. Doc. No. 51 at 9. However, the record
shows that LPN Hourigan examined Scott later on January 29, 2016. Doc. No. 51 at 122.
She noted he had an abscess, put him on K-flex, an antibiotic, and referred him to dental
on an emergency basis. Id.

15 Scott denies this fact because he was later seen by a medical provider and given steroids
because he had an abscess. Scott also claims that he was not allowed a copy of his medical jacket
to prove this point, but he submits copies of additional medical records showing that he was seen
by an LPN later on January 29, 2016, and by a dentist on February 5, 2016. See Doc. No. 51 at
122-123. The Court includes facts from those medical records as undisputed facts.
21

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 22 of 31

A dentist, Dr. Taliaferro, examined Scott on February 5, 2016. Id. at 123. Dr.
Taliaferro noted that Scott’s swelling had gone down and that he had no tooth problem or
infection. Id. Dr. Taliaferro concluded that Scott needed no further treatment because
^medical was already, treating him with antibiotics and pain medications. Id.
b. Analysis
i.

Deliberate Indifference to Serious Medical Condition

The Eighth Amendment’s proscription of cruel and unusual punishment obligates
prison officials to provide adequate medical care to inmates in their custody. Estelle v.
Gamble, 429 U.S. 97, 102-03 (1976). To succeed with an inadequate medical care claim,
an inmate must show that the prison official was deliberately indifferent to the inmate’s
serious medical needs. Coleman v. Rahija, 114 F.3d 778, 784 (8th Cir. 1997). This
requires a two-part showing that (1) the inmate suffered from an objectively serious
medical need, and (2) the prison official knew of the need yet deliberately disregarded it.
Id.; see also Farmer v. Brennan, 511 U.S. at 837; Estelle v. Gamble, 429 U.S. 97, 105
(1976). “When the inmate alleges that a delay in medical treatment rises to the level of an
Eighth Amendment violation, ‘the objective seriousness of the deprivation should also be
measured ‘by reference to the effect of delay in treatment.’” Laughlin v. Schriro, 430 F.3d
927, 929 (8th Cir. 2005) (quoting Beyerbach v. Sears, 49 F.3d 1324, 1326 (8th Cir. 1995)).
An inmate making such an allegation is therefore required to “‘place verifying medical
evidence in the record to establish the detrimental effect of delay in medical treatment.’”
Id. (quoting Crowley v. Hedgepeth, 109 F.3d 500, 502 (8th Cir. 1997)). If the inmate does

22

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 23 of 31

not, he fails to raise a genuine issue of fact on an essential element of his claim, and
summary judgment is appropriate. Id.
Defendants contend that Scott was not denied medical treatment on the day in
.question.. Doc._No._45 at 24. It is undisputed that Scott was seen in the infirmary on
January 29, 2016, at approximately 4:27 a.m., and that Scott was seen again by Nurse
Mosby at pill call and given antibiotic ointment. Even if Stout and Clark refused to let
Scott go to the infirmary mid-morning because his hair was up, Scott acknowledges that
he was seen later the same day by an LPN who diagnosed him with an abscess, prescribed
the medication K-flex, and referred Scott to dental as an emergency. Additionally, a dentist
examined Scott on February 5, 2016, and noted there was no tooth problem and no
additional treatment was necessary at that time because Scott was already on antibiotics
and pain medications.
Scott has not submitted any evidence that a delay resulting from Stout and Clark’s
refusal to allow him to go to the infirmary worsened his condition. If Scott’s need for
treatment was obvious to a layperson, he is excused from producing such evidence. See
Williams v. Whitfield, No. 2:09CV00100 JLH/BD, 2010 WL 4792146, at *2 (E.D. Ark.
Nov. 17, 2010) (quoting Roberson v. Bradshaw, 198 F.3d 645, 648 (8th Cir.1999) (“‘[W]e
have repeatedly emphasized that the need or the deprivation alleged must be either obvious
to the lay person or supported by medical evidence, like a physician’s diagnosis.’”)
(emphasis in original). The medical records from that morning establish that Scott had a
swollen face but no acute distress. See Doc. No. 44-15. There is no evidence to show that
Scott’s swollen face was so severe that Stout and Clark should have known he needed
23
- •>

\

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 24 of 31

<V
\

emergency medical treatment. Accordingly, Scott is required to produce verifying medical
evidence to establish the detrimental effect of a delay in medical treatment. See e.g.,
Corwin v. City of Independence, MO, 829 F.3d 695 (8th Cir. 2016) (summary judgment
appropriate where pretrial detainee failed to produce verifying medical evidence showing
a detrimental effect due to delay in treating fractured wrist). Because Scott has produced
no evidence to prove that a delay in seeing a nurse or doctor caused his condition to worsen,
and because Scott in fact was treated later that same day, Stout and Clark should be granted
/

summary judgment on Scott’s deliberate indifference claim.
ii.

Religious Exercise/RLUIPA Claims

Scott also alleges that Stout and Clark’s refusal to allow him to go to the infirmary
with his hair up violated his First Amendment right to freely exercise his religion and the
Religious Land Use and Institutionalized Persons Act (“RLUIPA”). See Doc. No. 1 at 1
& 5-6. Defendants maintain that Scott has not stated either a free exercise of religion or
RLUIPA claim.
RLUIPA provides in part, “[n]o government shall impose a substantial burden on
the religious exercise of a person residing in or confined to an institution,” unless the
burden furthers “a compelling governmental interest,” and does so by “the least restrictive
means.” 42 U.S.C. § 2000cc-l(a)(l)-(2). Likewise, a plaintiff cannot establish a First
Amendment violation without demonstrating that a substantial burden was placed on his
ability to practice his religion. See Patel v. U.S. Bureau ofPrisons, 515 F.3d 807, 813 (8th
Cir. 2008) (to survive summary judgment motion, a plaintiff must first raise a question of
material fact regarding whether a substantial burden was placed on his ability to practice
•24

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 25 of 31

his religion).16 The United States Court of Appeals for the Eighth Circuit has held that, in
order to constitute a “substantial burden” on the exercise of religion, a government policy
or action must:
... significantly inhibit or constrain conduct or expression that manifests some central tenet of a [person’s] individual [religious] beliefs; must
meaningfully curtail a [person’s] ability to express adherence to his or her
faith; or must deny a [person] reasonable opportunities to engage in those
activities that are fundamental to a [person’s] religion.
Murphy v. Missouri Dep’t of Corr., 372 F.3d 979, 988 (8th Cir. 2004) (quoting Weir v. Nix,
114 F.3d 817, 820 (8th Cir. 1997)) (alteration in original).17 The inmate “bear[s] the burden
of establishing a substantial burden on a religious exercise.” Van Wyhe v. Reisch, 581 F.3d
639, 657 (8th Cir. 2009) (emphasis in original).
Scott received a religious accommodation allowing him to grow long hair and a
beard. He did not receive an accommodation allowing him to wear his hair up, and the
record does not establish that he made such a request. Scott has also produced no evidence
to show he was routinely allowed to wear his hair up despite not having an accommodation
that allowed him to do so. Nevertheless, for purposes of this recommendation, the Court

16 <<

Once it is determined that a regulation imposes a substantial burden on a prisoner, the
review of that burden under the Free Exercise Clause differs from [the Religious Freedom
Restoration Act] andRLUIPA.” Patel v. U.S. Bureau ofPrisons, 515 F.3d 807, 813 (8th Cir.
2008). “If the prisoner fails to put forth sufficient evidence that his ability to practice his religion
has been substantially burdened, then the court need not apply the Turner test to the Free
Exercise claim and the strict scrutiny test to the RLUIPA claim.” Gladson v. Iowa Dep’t of
Corr., 551 F.3d 825, 833 (8th Cir. 2009).
17 The portions of this definition requiring religious beliefs to be a “central tenet” or
“fundamental” may not apply to a RLUIPA claim. See 42 U.S.C. § 2000cc-5(7)(A) (defining
religious exercise as “any exercise of religion, whether or not compelled by, or central to, a
system of religious belief’).
25

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 26 of 31

4

\

assumes Scott’s desire to wear his hair up is based on a sincerely held religious belief. But
even making that assumption, the Court finds that the one, isolated incident in issue in
which Clark and Stout did not allow him to leave his cell with his hair up is insufficient to
-show a substantial burden on his sincerely held religious beliefs or his ability to practice
his religion. Accordingly, Scott’s RLUIPA and free exercise claims fail and should be
dismissed with prejudice.
Further, to the extent Scott claims he requested but was denied a broader
accommodation that would allow him to keep his hair up,18 he does not state a claim against
Stout and Clark. Any claim based on the denial of his requested accommodation must be
brought in a separate lawsuit against the appropriate defendants. There is no evidence that
Stout and Clark were personally involved in the denial of such an accommodation.
4.

False Disciplinary/Retaliation Claim: Defendants Thompson & Kennedy

The Court previously determined that a retaliatory false disciplinary claim survived
defendants’ motion for summary judgment on the issue of exhaustion. See Doc. No. 38 at
4-5; Doc. No. 39. The Court did not construe that claim as a due process claim based on a

18 Scott claims that defendants refused to produce a copy of his accommodation request.
Doc. No. 51 at 10. He states that he
explained to the ADC his religious belief as ‘G’ one God, the good qf all religions
and Rastafari to gain strength in our hair. To grow twist and lock up naturally of
oneself. ADC defendants ran out of room on his religious script and didn’t put all
of Scott belief on his script.
Id. at 10-11.
26

A
Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 27 of 31

false disciplinary,19 but a claim that a false disciplinary was issued in retaliation for Scott
filing a grievance. Specifically, Scott alleges:
The actions of Defendant Kennedy to retaliate on plaintiff for his previous
use of grievance procedure against her, by abusing her authority and
| conspiring] .having her co worker Defendant Thompson write a falsified _
disciplinary.report that Defendant Sgt. Kennedy found.a 2‘shank” in a .cage __
Scott left in it 3 hr after he was shipped to a different unit.
Doc. No. 1 at 6, U 49.
a. Undisputed Facts

^

On February 5,2016, Thompson issued Scott a IVIajor Disciplinary for possessing a
v V

.

\

shank. Doc. No. 54-1 at 1. On February 8, 2016, Stout reviewed the disciplinary and
referred it to the Disciplinary Hearing Office to schedule a hearing. Id. Scott was notified
of the disciplinary charges by Sedrick T. Franklin that day. Id.
On February 16, 2016, Scott appeared before Disciplinary Hearing Officer Justine
Minor for his disciplinary hearing. Id. at 1-2. Scott stated: “When I was served this
disciplinary by Frank I was so drunk I dont know what was going on but how can they find
a shank after I leave out I aint had no shank.” Id. at 2. Scott was found guilty of a Major

*

19 Scott’s complaint allegations do not support a due process claim. To state such a
claim', a plaintiff must “demonstrate that he was deprived of life, liberty or property by
government action.” Phillips v. Norris, 320 F.3d 844, 846 (8th Cir. 2003). A prisoner has no
liberty interest in having certain procedures followed in the disciplinary process; rather, the
liberty interest arises from the “nature of the prisoner’s confinement.” Phillips, 320 F.3d at 847.
An inmate has no liberty interest in avoiding segregated confinement, as long as the conditions .
do not amount to an “atypical and significant” hardship that would give rise to due process
protection as set forth in Sandin v. Conner, 515 U.S. 472, 483-484 (1995). The Eighth Circuit
Court of Appeals has “consistently held that administrative and disciplinary segregation are not
atypical and significant hardships under Sandin.” Portly-El v. Brill, 288 F.3d 1063, 1065 (8th
Cir. 2002). Scott describes no change in conditions that could constitute the deprivation of a
liberty interest after he was disciplined in February 2016. Accordingly, he fails to state sufficient
facts to support a due process claim based oil an alleged false disciplinary.
27

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 28 of 31

vS
Disciplinary for possession of a shank. Id. at 2. He was sentenced to serve 30 days in
isolation and was reduced in class to Class IV. Id.
The evidence supporting the disciplinary was listed as: the staff report, the F-l
statement from .the charging officer, a photo of evidence, 401 form, reviewed witness
statement, and staff eye witness report. Id. Scott appealed the disciplinary findings but
they were upheld. Id. at 2-3.
b. Analysis
Retaliation against an inmate for his use of a prison grievance procedure is
actionable. See Orebaugh v. Caspari, 910 F.2d 526, 528 (8th Cir. 1990) (per curiam)
(otherwise proper acts are actionable under § 1983 if done in retaliation for grievances filed
under established prison grievance procedure). However, the Eighth Circuit Court of
Appeals has held that “if the discipline which the prisoner claims to have been retaliatory
was in fact imposed for an actual violation of prisoner rules or regulations, then the
prisoner’s claim that the discipline was retaliatory in nature must fail.” Goff v. Burton, 7
F.3d 734, 738 (8th Cir. 1993). See also Henderson v. Baird, 29 F.3d 464, 469 (8th
Cir. 1994) (prison disciplinary committee’s finding, based on corrections officer’s
description of events, that prisoner actually violated prison regulations essentially
“checkmate[d]” prisoner’s retaliation claim), cert, denied, 515 U.S. 1145 (1995). The
United States Supreme Court has held that in prison discipline cases, the requirements of
due process are satisfied if “some evidence” supports the decision by the prison disciplinary
board. Superintendent v. Hill, All U.S. 445, 455 (1985).

28

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 29 of 3,

4

0*

\

Scott claims that he could not have had a shank in his possession because Thompson
had searched his cell before he was removed from the visitation cage and did not find a
shank. Id,; Doc. No. 51 at 13-14. Scott also claims he was not allowed to present witness
statementsrto supporthis .position. Doc. No. 51 at 13-14. For evidentiary support for his
claims, Scott points to the charge in the disciplinary report which stated:
I, Cpl. Eddie Thompson II along with Sgt. Kennedy was in Big Visitation
(Zone 3) cleaning up property from Inmate Scott, Deverick #131042 who
transferredvto another unit. Approx, around 9:20 AM before Inmate Scott,
Deverick was placed in cell #6 in Big Visitation (Zone 3) I Cpl. Thompson
II search the cell and there was nothing in the cell. When Sgt. Kennedy
looked in the comer of cell #6 in Big Visitation and pulled out a brown piece
of paper rolled up. I Cpl. Thompson II then took the rollechip piece of paper
and opened it up and discovered a shank that is approx. 6 inches in length.
Therefore I, Cpl. Eddie Thompson II am charging inmate Scott withrthe
above rule violation 09-1.
Doc. No. 51 at 55. Scott also provides his disciplinary appeal form (id. at 58); Crystal
Neese’s answers to requests for admission admitting that she was never asked to write a
witness statement regarding the February 5, 2016 incident (id. at 86); Hunter Neal’s
answers to requests for admission admitting that he was never asked to write a witness
statement regarding the February 5, 2016 incident (id. at 89); and Thompson’s answers to
requests for admission admitting that the shank was not found while Scott was being
removed from the cell, that Scott was handcuffed and shackled while he entered the cage,
that the shank was not found in Scott’s personal possession, that he never saw Scott with
the shank, and that the shank was not found in Scott’s personal property while it was
inventoried (id. at 101-102).

29

s

f.

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 30 of 3\

ai
Scott’s retaliation claim against Thompson or Kennedy fails as a matter of law.

■?

i

First, Scott offers nothing more than speculation that Kennedy or Thompson would be
motivated to retaliate against him; he does not even identify which grievances he wrote
against them-that would cause them to want to retaliate against him. Second, the February
5, 2016 disciplinary report shows that there was some evidence to support the disciplinary
Scott alleges was retaliatory. The report states that the hearing officer considered a 005
witness statement from staff, the charging officer’s statement, and a photo of the weapon.
Doc. No. 54 at 2. Scott does not allege or provide any evidence to show that the hearing
officer, Justine Minor, was impartial. Finally, the evidence offered by Scott does not show
that he requested Neese or Neal to provide witness statements or that their testimony would
be material. In fact, the disciplinary report states that Scott’s only statement in the hearing
was: “When I was served this disciplinary by Frank I was so drunk I dont know what was
going on but how can they find a shank after I leave out I aint had no shank.” Id. Thus,
“some evidence” supports Scott’s conviction on the February 5,2016 disciplinary charges,
and the retaliation claim he asserts based on those charges should be dismissed with
prejudice.
C.

State Law Claims
Because Scott’s constitutional claims are subject to dismissal, the Court should

decline to exercise jurisdiction over Scott’s state law tort claims. See Gibson v. Weber,
433 F.3d 642, 647 (8th Cir. 2006) (Congress unambiguously gave district courts discretion
in 28 U.S.C. § 1367(c) to dismiss supplemental state law claims when all federal claims
have been dismissed).
30

1

Case: 5:17-cv-00098-DPM

Document #: 55-0

Date Filed: 05/09/2019

Page 31 of 31

IV. Conclusion
Defendants are entitled to summary judgment with respect to Scott’s official
capacity claims, and because Scott fails to establish a constitutional violation, defendants
are entitled-to-qualified immunity as to Scott’s individual capacity claims. The undersigned
recommends that the defendants’ motion for summary judgment (Doc. No. 44) be granted,
and Scott’s claims against defendants be dismissed with prejudice.
DATED this 9th day of May, 2019.

UNITED STATES MAGISTRATE JUDGE

31

